TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 While the Data Loss Prevention Solution Is
                 Being Developed, Stronger Oversight and
                  Process Enhancements Are Needed for
                   Timely Implementation Within Budget



                                     September 22, 2014

                             Reference Number: 2014-20-087




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 – Tax Return/Return Information
3 = Other Identifying Information



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                HIGHLIGHTS


WHILE THE DATA LOSS PREVENTION                      Personally Identifiable Information and data that
SOLUTION IS BEING DEVELOPED,                        should not be exiting IRS networks.
STRONGER OVERSIGHT AND PROCESS                      Based on its new projected implementation date
ENHANCEMENTS ARE NEEDED FOR                         of December 31, 2014, the IRS will have taken
TIMELY IMPLEMENTATION WITHIN                        more than four years to build and develop its
BUDGET                                              DLP solution. Because of the length of time
                                                    taken, TIGTA believes that stronger
                                                    management oversight is needed to ensure that
Highlights                                          the DLP solution meets its new implementation
                                                    date within budget. In addition, the IRS could
Final Report issued on                              not provide support to validate SPIIDE Project
September 22, 2014                                  spending, which it reports to be more than
                                                    $9.6 million of the $11.4 million budgeted
Highlights of Reference Number: 2014-20-087         through Fiscal Year 2014.
to the Internal Revenue Service Chief               Lastly, DLP solution processes and procedures
Technology Officer.                                 can be enhanced while the DLP solution is still
IMPACT ON TAXPAYERS                                 being developed. While TIGTA determined that
                                                    the DLP Operations team correctly classified
The protection of sensitive and personal            99 (94 percent) of 105 sampled e-mail events,
information is more important than ever with        TIGTA also found that 17 (57 percent) of the
electronic communications becoming                  30 appropriately classified e-mail events were
increasingly prevalent. Safeguarding Personally     potential incidents that were not forwarded to all
Identifiable Information in the possession of the   appropriate incident responders. These
IRS is essential to retaining the trust of          incidents should have been forwarded to and/or
taxpayers.                                          accepted by the Office of Privacy, Governmental
                                                    Liaison, and Disclosure. That office should have
WHY TIGTA DID THE AUDIT                             then advised the affected parties of the
This audit is included in our Fiscal Year 2014      disclosure and offered credit monitoring services
Annual Audit Plan and addresses the IRS major       in 11 of the 17 potential incidents.
management challenge of Security of Taxpayer        WHAT TIGTA RECOMMENDED
Data and Employees. The overall objective was
to determine whether the Safeguarding               TIGTA recommended that the Chief Technology
Personally Identifiable Information Data Extracts   Officer ensure that the SPIIDE Project team
(SPIIDE) Project is developing a data loss          reconciles the DLP solution funding and
prevention (DLP) and protection solution for        expenses and resolves discrepancies identified
implementation in accordance with applicable        during the audit. TIGTA also recommended that
policies and procedures and within budget to        the Director, Privacy, Governmental Liaison, and
safeguard sensitive taxpayer data.                  Disclosure, revise the disclosure acceptance
                                                    criteria to ensure that all potential Personally
WHAT TIGTA FOUND                                    Identifiable Information disclosure incidents are
The SPIIDE Project team is progressing in its       reported.
development and implementation of the DLP           In their response, IRS management agreed with
solution. The team has completed key required       all but two recommendations. The IRS partially
enterprise life cycle deliverables and has been     agreed with one recommendation and disagreed
identifying and addressing security weaknesses      with the recommendation to revise its disclosure
as they are detected. Notwithstanding these         acceptance criteria. TIGTA agrees with the
achievements, the SPIIDE Project team               rationale for the partial agreement, but believes
continues to face challenges to timely implement    that the acceptance criteria should be revised to
the DLP solution to protect from disclosing         protect against disclosures.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 22, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – While the Data Loss Prevention Solution Is Being
                             Developed, Stronger Oversight and Process Enhancements Are Needed
                             for Timely Implementation Within Budget (Audit # 201420024)

 This report presents the results of our review of the Internal Revenue Service’s data loss
 prevention solution. The overall objective of this review was to determine whether the
 Safeguarding Personally Identifiable Information Data Extracts Project is developing a data loss
 prevention and protection solution for implementation in accordance with applicable policies and
 procedures and within budget to safeguard sensitive data. This audit is included in our Fiscal
 Year 2014 Annual Audit Plan and addresses the major management challenge of Security for
 Taxpayer Data and Employees.
 Management’s complete response is included in Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Kent Sagara, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).
                        While the Data Loss Prevention Solution Is Being Developed,
                               Stronger Oversight and Process Enhancements
                           Are Needed for Timely Implementation Within Budget




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Stronger Management Oversight Is Needed to Ensure
          That the Data Loss Prevention Solution Meets Its
          New Implementation Date Within Budget ................................................... Page 3
                    Recommendations 1 through 4:......................................... Page 11

                    Recommendation 5:........................................................ Page 12

          Data Loss Prevention Solution Processes and Procedures
          Can Be Enhanced .......................................................................................... Page 12
                    Recommendations 6 and 7: .............................................. Page 19

                    Recommendations 8 through 10: ....................................... Page 20

                    Recommendations 11 and 12: ........................................... Page 21


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 22
          Appendix II – Major Contributors to This Report ........................................ Page 24
          Appendix III – Report Distribution List ....................................................... Page 25
          Appendix IV – Outcome Measure ................................................................ Page 26
          Appendix V – Glossary of Terms ................................................................. Page 27
          Appendix VI – Management’s Response to the Draft Report ...................... Page 32
         While the Data Loss Prevention Solution Is Being Developed,
                Stronger Oversight and Process Enhancements
            Are Needed for Timely Implementation Within Budget




                       Abbreviations

CSIRC            Computer Security Incident Response Center
DAR              Data-at-Rest
DIM              Data-in-Motion
DIU              Data-in-Use
DLP              Data Loss Prevention
IFS              Integrated Financial System
IPS              Integrated Procurement System
IRM              Internal Revenue Manual
IRS              Internal Revenue Service
OMB              Office of Management and Budget
OPR              Office of Professional Responsibility
Ops              Operations
PGLD             Privacy, Governmental Liaison, and Disclosure
PII              Personally Identifiable Information
SBU              Sensitive But Unclassified
SPIIDE           Safeguarding Personally Identifiable Information Data Extracts
SSN              Social Security Number
TIC              Trusted Internet Connection
TIGTA            Treasury Inspector General for Tax Administration
TIN              Taxpayer Identification Number
                     While the Data Loss Prevention Solution Is Being Developed,
                            Stronger Oversight and Process Enhancements
                        Are Needed for Timely Implementation Within Budget




                                            Background

The protection of sensitive and personal information is more important than ever with electronic
communications becoming increasingly prevalent. Safeguarding Personally Identifiable
Information (PII) in the possession of the Federal Government and preventing its breach are
essential to retaining the trust of the American public. This responsibility is shared by officials
accountable for administering operational, privacy, and security programs. PII is any
information that, by itself or in combination with other information, may be used to uniquely
identify an individual. For the Internal Revenue Service (IRS), PII primarily consists of Social
Security Numbers (SSN), names, addresses, dates and places of birth, bank account numbers,
e-mail addresses, telephone numbers, and mother’s maiden names. The Office of Management
and Budget (OMB) and the Department of the Treasury (Treasury) Chief Information Office
released several memoranda to address the issue of safeguarding PII across all Federal agencies.
In a February 2011 report,1 the Treasury Inspector General for Tax Administration (TIGTA)
reported that the IRS had not implemented a recommended enterprise data leakage prevention
system before approving the Secure Email With Taxpayers program because the IRS, along with
the Treasury, determined the data loss prevention solutions in the marketplace, at that time, were
not mature or robust enough to address the IRS’s needs. In addition, the report linked the
importance of the recommended data leakage system with the Administration’s Trusted Internet
Connection (TIC)2 initiative, which is one of three priorities to improve cybersecurity and the
security of Federal information systems. The TIC initiative aims to improve agencies’ security
posture and incident response capabilities through enhanced monitoring and situational
awareness of all external network connections.
In response to the OMB memoranda, the IRS Cybersecurity’s Architecture and Implementation
Branch is leading the Safeguarding Personally Identifiable Information Data Extracts (SPIIDE)
Project to promote secure practices in electronic communications (e-mails and Internet access)
on the IRS network to protect Sensitive But Unclassified (SBU) data. Taking a phased approach,
the SPIIDE Project team plans to build a system environment to implement the Symantec’s Data
Loss Prevention (DLP) commercial off-the-shelf software solution that is capable of identifying
and tracking a number of the IRS’s defined PII datasets. The DLP solution is designed to give
the IRS an enterprise view into where its most sensitive data are stored, who has access to the
data, and where and by whom the data are sent to outside the IRS network. By using this
information, the IRS can spot broken business processes and reduce the overall risk of exposure.
The DLP solution is a system that will take a data-centric approach to security, in which policies

1
  Treasury Inspector General for Tax Administration, Ref. No.2011-20-012, Additional Security Is Needed for the
Taxpayer Secure E-Mail Program p. 5 (Feb. 2011).
2
  See Appendix V for a glossary of terms.
                                                                                                          Page 1
                  While the Data Loss Prevention Solution Is Being Developed,
                         Stronger Oversight and Process Enhancements
                     Are Needed for Timely Implementation Within Budget


can be developed around the content that should be protected and then deployed across multiple
data states or functionalities, such as identifying, monitoring, and preventing. The DLP solution
consists of three components: Data-in-Motion (DIM), Data-at-Rest (DAR), and Data-in-Use
(DIU).
      The DIM monitors data moving across the IRS’s information technology perimeter and
       identifies PII in e-mails and attachments that are in the process of being sent from the
       IRS. Once identified, the system can prevent inappropriate dissemination of the PII
       based upon policy. While the system is being developed, the SPIIDE Project team will
       not prevent e-mails from being sent out until the DIM capability is fully implemented and
       National Treasury Employees Union (hereafter referred to as Union) negotiations are
       completed. The IRS plans to implement only the DIM component in its initial release.
      The DAR discovers and identifies PII residing across the IRS’s vast information
       technology infrastructure and determines whether it has adequate protection. The DAR
       scans PII stored on network databases, storage devices, and SharePoint sites. The DAR
       is scheduled for implementation in Release 2.
      The DIU monitors data being created and manipulated on users’ workstations and
       prevents the unintended or malicious distribution, storage, or alteration. The DIU,
       installed on users’ laptops, identifies PII that is stored on thumb drives and compact disks
       as well as in e-mails. The DIU tags PII in e-mails as it is being typed and is more
       preventive rather than reactive when compared to the DIM. The DIU is scheduled for
       implementation in Release 3.
This review was performed at the Information Technology organization’s Cybersecurity office in
New Carrollton, Maryland, during the period December 2013 through June 2014. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                 While the Data Loss Prevention Solution Is Being Developed,
                        Stronger Oversight and Process Enhancements
                    Are Needed for Timely Implementation Within Budget




                                Results of Review

The SPIIDE Project team is progressing in its development and implementation of the DLP
solution. They have completed key required enterprise life cycle deliverables through the current
milestone and have been identifying and addressing security weaknesses as they are identified,
such as defining user roles and responsibilities to ensure that separation of duties exists and
creating individual user accounts with minimum required privileges rather than the team using
the default administrator account that provided privileged accesses and permissions to the
system. The SPIIDE Project team has also conducted several e-mail monitoring tests of the DLP
solution to determine whether the system is identifying disclosures of PII as expected and is
updating the policy to reduce the number of false positives.
The IRS paid more than $3.7 million to purchase user seat licenses and maintenance for the DLP
solution for use by all of the Treasury. This amount was far less than the initial bid of
$5.9 million for licenses and maintenance that Symantec offered the IRS for the same number of
users, despite not effectively using all of them. Specifically, the IRS bought 110,000 individual
user seat licenses and maintenance for the DIM component it is developing and the other two
DLP solution components (the DIU and the DAR) that are not scheduled for implementation. In
addition, the IRS bought 30,000 individual user seat licenses and maintenance for all three DLP
solution components for the Treasury to use, although to date only two agencies have inquired
about the licenses and none have requested to use them. According to the new executive
assigned to the SPIIDE Project, the reason for the limited use is that other agencies within the
Treasury have run into similar development and implementation challenges as those experienced
by the IRS. The IRS is now providing guidance to the other agencies in the Treasury and
instituting a process that can be repeated for future implementation of the remaining DLP
solution components. For example, the IRS is considering adding policies to the DLP solution
that will include identifying bank account numbers that are leaked from its networks.
Notwithstanding the above achievements, the SPIIDE Project team continues to face challenges
to timely implement the DLP solution to protect PII from disclosure and loss of data. Stronger
management oversight is needed to ensure that the DLP solution meets its new implementation
date within budget. In addition, DLP solution processes and procedures can be enhanced to
improve the effectiveness of the DLP solution.

Stronger Management Oversight Is Needed to Ensure That the Data
Loss Prevention Solution Meets Its New Implementation Date Within
Budget
Based on its new projected implementation date, the IRS will have taken more than four years to
build and develop the DLP solution and implement one (the DIM) of the three components to
                                                                                          Page 3
                     While the Data Loss Prevention Solution Is Being Developed,
                            Stronger Oversight and Process Enhancements
                        Are Needed for Timely Implementation Within Budget


protect PII since the SPIIDE Project was first chartered in March 2010. In a February 2011
TIGTA report, the IRS planned to fully implement the DLP solution in April 2012 and later
changed the date to July 2012. In April 2013, the SPIIDE Project team requested and received
Executive Steering Committee approval to rebaseline the implementation of the DLP solution by
December 31, 2014. Because of the length of time taken to implement the DLP solution, we
believe that the IRS is at risk of not fulfilling a recommended DLP solution capability, which is
included in the Administration’s TIC initiative for improving cybersecurity and the security of
Federal information systems.

Management control challenges have affected the implementation of the
DLP solution
The SPIIDE Project team has and continues to face challenges to timely implement the DLP
solution. These challenges include insufficient funding and dedicated resources, changes in
project leadership and lack of experience, and project administration and execution issues with
the development and implementation of the DLP solution.
       The DLP solution continues to compete for limited IRS information technology program
        funding and resources with other higher priority projects and initiatives, such as the
        Affordable Care Act,3 the Customer Account Data Engine 2, and each annual filing
        season from 2012 through 2014. As a result of the funding and resource demands: 1) the
        SPIIDE Project team lost a project manager and two of four contracted subject matter
        experts; 2) the development, integration, and test environment was not initially funded
        and delayed the start of the DLP solution pilot by nine months; and 3) functions in the
        IRS Information Technology organization were delayed in reviewing architecture plans
        and performing operational implementation maintenance and work, e.g., system
        administrators were not readily available to replace and test a computer motherboard that
        crashed, on the DLP solution.
       The SPIIDE Project team lacked consistent leadership, team members, and experience in
        developing and implementing the DLP solution. The DLP solution has had at least
        three project managers during its development. In addition, we reviewed the SPIIDE
        Project team’s list of lessons learned, which indicated issues with stakeholder
        communications, the need for longer commitments from team members, team members’
        limited knowledge of the enterprise life cycle process and requirements management,
        inadequate relationships with process owners, poor planning when requesting necessary
        equipment, and insufficient lead time for contractors to obtain background clearances.
        For example, beginning in February 2011, the SPIIDE Project team experienced
        approximately a five-month delay with contract negotiations and waiting for contractor


3
 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                          Page 4
                 While the Data Loss Prevention Solution Is Being Developed,
                        Stronger Oversight and Process Enhancements
                    Are Needed for Timely Implementation Within Budget


       background clearances, only to discover that the contractors, ******3******
       ********3********, were not qualified and had to be replaced.
      Due to miscommunication between the SPIIDE Project team and the Office of Privacy,
       Governmental Liaison, and Disclosure (PGLD), a live data waiver, a requirement for
       testing when using real taxpayer data, was allowed to expire, which delayed further
       testing of the DLP solution in February 2014. Operating without a live data waiver
       violated IRS policy. Internal Revenue Manual (IRM) 10.8.8.1, Live Data Protection,
       requires that the use of live data is prohibited without approval from the PGLD office.
       This provision applies to all offices, business, operating, and functional units within the
       IRS, and is to be applied when live data are used to accomplish the IRS’s mission. This
       manual also applies to individuals and organizations having contractual arrangements
       with the IRS, including employees, contractors, vendors, and outsourcing providers that
       use or operate information technology systems containing IRS live data.
      In September 2013, the IRS hired an executive in its Cybersecurity office with experience
       in implementing the DLP solution. Among his responsibilities for the SPIIDE Project is
       to help provide guidance for its development and implementation efforts. The executive
       offered some insight into why the SPIIDE Project encountered and continues to
       encounter delays. For example, the responsibility for the expected data output should lie
       with the business owners rather than the SPIIDE Project team, and the processes, roles,
       and responsibilities that are now being developed should have been in place earlier.
      Efforts to involve the Union should have begun earlier to negotiate the process for
       addressing employees involved with outbound unencrypted e-mails. The process can be
       laborious and involve bargaining experts who represent the Union as well as IRS
       management and attorneys.
To provide perspective regarding the length of time used to implement the DLP solution, we
identified and contacted two other Government agencies, the U.S. Postal Service and the
Department of State, that have implemented the solution. They shared with us that they were
able to implement their DLP solution through a “plug and play,” rather than building a system
environment, in approximately six and 24 months, respectively. The IRS’s response to the other
Government agencies “plug and play” was that it was not a viable option. Officials shared with
us that they have tax systems that could/would most likely be negatively affected if drivers were
automatically installed by “plug and play” software. While both agencies implemented the DIM
first, the U.S. Postal Service was able to start blocking e-mails within three months after
implementation and has subsequently implemented the DAR component. Both agencies initially
identified SSNs in their search criteria; however, the U.S. Postal Service includes credit card
numbers and threatening words. We shared our observations of the other agencies with the
SPIIDE Project team.



                                                                                             Page 5
                    While the Data Loss Prevention Solution Is Being Developed,
                           Stronger Oversight and Process Enhancements
                       Are Needed for Timely Implementation Within Budget


The designed capabilities of the DLP solution can be improved
When the IRS’s DLP solution is implemented, it will not be as robust in its capabilities as the
solution can provide, especially when identifying more SSNs that could exit the IRS network
undetected. Specifically, the SPIIDE Project team included policies in the DLP solution to
identify PII using only SSNs, based on a specific pattern, and only in association with key words
or phrases (i.e., Social Security Number, SSN, SS#) in unencrypted outbound e-mails. However,
we determined the IRS could add another common term, Taxpayer Identification Numbers
(TIN), independently or in association with SSNs, to further enhance the DLP solution
capabilities.
We conducted research of TIGTA’s Data Center Warehouse, which receives selected downloads
of IRS computer data, and identified four major IRS databases4 that use the heading “TIN” as a
key word in identifying taxpayer SSNs. During the audit, we conducted an independent testing
of the DLP solution to determine whether the DLP solution is capable of identifying unencrypted
e-mails containing PII. We designed 43 e-mails containing TIN as the key word. The DLP
solution did not identify any of the e-mails because policies were not created to identify that
key word.
In addition, during the independent testing, we created 32 e-mails that met the narrow policy
criteria currently used by the DLP solution. These e-mails contained the ADOBE portable
document format, jpeg, Excel, and Word documents with the key word SSN and a nine-digit
number separated by hyphens, periods, no spaces, and spaces as separators. The DLP solution
correctly identified 28 (88 percent) of the 32 e-mails. However, for the remaining four e-mails,
the DLP solution failed to identify the SSNs in Excel documents because the key word “SSN”
was placed in comment boxes in the spreadsheets rather than inside the cells.
We discussed the four exceptions with the SPIIDE Project team, and they stated that the DLP
solution version 11.6 the IRS purchased could not detect embedded comments in Microsoft
Office 2007 files. They further stated that the Symantec vendor corrected the issue in version 12.
The SPIIDE Project team plans to upgrade to version 12 after full deployment, if funding is
available. The upgrade will need to be discussed with the Enterprise Life Cycle Project
Management Office because it may be considered a major system change, which will require the
SPIIDE Project team to coordinate work with the IRS’s Enterprise Operations function, rework
enterprise life cycle and other project documentation, and perform additional testing and all other
maintenance release tasks.
Guidelines and recommendations as well as other factors, such as impact and dependency for
other systems, also needed to be considered when implementing a DLP solution. The National
Institute for Standards and Technology Special Publication 800-122, Guide to Protecting the

4
 The four IRS databases were the Integrated Data Retrieval System, the Integrated Collection System, the
Automated Collection System, and the Examination Returns Control System. These computer systems are capable
of retrieving, updating, or providing employees with access to stored taxpayer information.
                                                                                                     Page 6
                    While the Data Loss Prevention Solution Is Being Developed,
                           Stronger Oversight and Process Enhancements
                       Are Needed for Timely Implementation Within Budget


Confidentiality of Personally Identifiable Information,5 recommends that agencies implement
automated tools, such as a network data leakage prevention tool, to monitor transfers of PII and
to monitor inbound and outbound communications for unauthorized activities. In addition, the
Government Accountability Office’s Standards for Internal Control in the Federal Government 6
provides that application controls should be designed to help ensure completeness, accuracy,
authorization, and validity of all transactions during application processing. Controls should be
installed as an application interfaces with other systems to ensure that all inputs are received and
are valid and that outputs are correct and properly distributed.
The IRS is developing a partial DLP solution to identify potential disclosures of PII associated
with the key word “SSN” in its outbound unencrypted e-mails. Without a more robust DLP
solution in place, the IRS lessens its ability to effectively and accurately discover or prevent PII
data leakage, maintain confidentiality of data, ensure public trust of conducting business
electronically, and prevent disclosure and loss of information. However, once implemented, the
IRS plans to add additional polices to the DIM that will identify passwords, credit card numbers,
and bank account numbers.

DLP solution budget and expense figures could not be supported
The IRS could not provide support to validate that the SPIIDE Project spent more than
$9.6 million of its budgeted $11.4 million through Fiscal Year 2014 to implement the
DLP solution. As part of our review, we requested from the Information Technology Financial
Management Services copies of all contracts and payment invoices, including dollar amounts
reported on the Integrated Financial System (IFS) and Integrated Procurement System (IPS),
associated with the SPIIDE Project. The IRS took approximately three months to provide
18 contracts and 118 invoices related to the project. This effort to provide supporting
documentation and clarification involved several IRS organizations including the SPIIDE
Project, Information Technology Financial Management Services, Chief Financial Officer, and
Procurement offices.
We attempted to reconcile the budget and invoice expense totals by contract to the dollar
amounts reported on the IFS and the IPS. We planned to conduct further analyses on any
differences between the two amounts, if any were identified. However, due to the complexity
and age of some of the contracts, e.g., multiple projects under one contract dating back to 2006,
and the obstacles encountered in obtaining and reconciling the budget and invoice expense
amounts, we eventually opted to review one contract, totaling more than $3.5 million, in-depth
until we were able to identify a process to quickly resolve the differences in the dollar amounts.



5
  National Institute of Standards and Technology, NIST SP 800-122, Guide to Protecting the Confidentiality of
Personally Identifiable Information (PII) (April 2010).
6
  Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                       Page 7
                  While the Data Loss Prevention Solution Is Being Developed,
                         Stronger Oversight and Process Enhancements
                     Are Needed for Timely Implementation Within Budget


For two months, we made repeated requests to resolve differences in the budgeted and expense
amounts, which to date remain unresolved.
Based upon the limited scope of our review, we identified the following issues that were in
multiple contracts and in the single contract reviewed. Contracts and invoices provided were not
always associated with the SPIIDE Project and DLP solution. The IRS provided invoices that
were not related to the DLP solution but instead were related to a different project. In contrast, it
did not provide at least one contract and potentially other invoices associated with the SPIIDE
Project. During our preliminary review to reconcile the budget and invoice expense totals, we
located an invoice identified as a DLP solution expense, along with the contract number, but this
contract was not one of the 18 contracts initially provided to us. Moreover, some of our
calculated expense totals did not match the expense totals reported in the IFS, with differences
ranging from $1,200 to more than $3.3 million, indicating the potential for unaccounted invoice
expenses. Budget and invoice calculated expense totals did not reconcile to figures reported in
the IFS and the IPS. We selected one contract for an in-depth review, and our results included
the following:
      From four line items in the contract, we calculated $1,105,392.06 was budgeted for the
       SPIIDE Project. However, the amount for the same contract as reported in the IFS was
       $795,392, and in the IPS, it was $871,670.78. The difference between our amount and
       the IFS figure is due to one line item that was not included in the IFS. IRS personnel
       stated the line item in question should not be included in the total budget because it was
       not charged to the SPIIDE Project, despite the line item being clearly marked as such. In
       addition, we identified one invoice related to the SPIIDE Project that was charged to the
       line item that should not have been included.
       In the IPS, there were four budgeted amounts, but none matched the line item amounts in
       the contract we reviewed. IRS personnel stated it was possible that there were remaining
       funds never spent and later de-obligated. They stated it is a common practice to leave a
       small amount of funds on each line item just in case new expenses come in. IRS
       personnel never confirmed whether the funds were de-obligated and whether the
       de-obligated funds accounted for the differences between the IPS amounts and the
       contract amounts.
      Invoice amounts did not match payment amounts in the IFS. For example, an invoice for
       $22,595.61 was recorded in the IFS as $18,919.03 and was paid as $18,950.56. The
       invoice indicated that the payment was short $3,676.58, which is the difference in the
       invoice amount recorded in the IFS. However, there is no explanation in the IFS of why
       a different amount was actually paid. In another example, an invoice for $45,950.35 was
       recorded in the IFS for the same amount but $46,016.29 was paid. Although the
       difference was small, there was no explanation in the IFS for the change.
      Fees billed on invoices for the SPIIDE Project and other information technology projects
       were not proportionately allocated and charged in the IFS. For example, an invoice billed
                                                                                              Page 8
                     While the Data Loss Prevention Solution Is Being Developed,
                            Stronger Oversight and Process Enhancements
                        Are Needed for Timely Implementation Within Budget


         for the SPIIDE Project and another project totaled $54,149.32, which included a
         7.75 percent fee of $3,894.74. The subtotal including the fee for the SPIIDE Project
         should have been $29,301.84 but was recorded in the IFS as $29,141.66. The fee was
         also not correctly applied for the other project’s expense. We observed similar concerns
         in 13 other invoices for which amounts in the IFS showed fees were misapplied for
         approximately $340.
        Other documents provided as support for invoice amounts were not useful, but the
         invoices were paid. For example, one invoice for $140,112.96 was paid, but the
         supporting documents attached to the invoice only supported $45,293.23. We inquired
         about the additional documentation but did not receive it. Also, in our preliminary
         review of all invoices, we identified numerous instances in which supporting
         documentation was lacking, such as timesheets to support the number of hours billed for
         each contractor.
While the dollar discrepancies above may be comparatively small, the results are for one of at
least 19 contracts.7 If similar results are found in other contracts, collectively, they could have a
material effect on the budget and spending for the SPIIDE Project.
Specific requirements in IRM 1.35.3, Receipt and Acceptance Guidelines, provide that Federal
agencies must adhere to 31 United States Code 3512, Executive Agency Accounting and Other
Financial Management Reports and Plans, which requires agencies to establish and maintain
systems of accounting and internal control to provide reliable accounting of the agency’s
activities. The systems must provide reasonable assurance that transactions are properly
recorded and accounted for and are in compliance with laws and regulations. The accurate and
timely recording of both receipt and acceptance is critical in assuring that the IRS’s financial
statements are materially correct. The IRM further requires the office that physically receives or
accepts the goods or services must have and maintain documentation that supports recording the
appropriate accounting entry. An invoice by itself is not sufficient documentation to support
receipt or acceptance by the business unit.
During our discussions on the budget and expenses, IRS personnel could not explain the
differences in the figures reported in the IFS and the IPS. ********3*********
**************************************3***************************************
**************************************3***************************************
***. The contracting officer’s representative stated that there were four contracting officer’s
representatives who made entries to the contract because of employee turnover in business units
that resulted from transfers and retirements. The contracting officer’s representative further
stated that the IPS does not have controls in place to restrict system access and that any
contracting officer’s representative can access any contracts to make a journal entry and make


7
  The 19 contracts are the 18 that the IRS provided to us and the one contract we identified during our attempt to
reconcile the budget and invoice expense totals.
                                                                                                              Page 9
                 While the Data Loss Prevention Solution Is Being Developed,
                        Stronger Oversight and Process Enhancements
                    Are Needed for Timely Implementation Within Budget


                                           payments. In addition, the IPS does not have checks
                                           and balances to ensure that inputs are properly
                                           charged to the correct program, especially in
                                           contracts for multiple projects.
                                           Because the DLP solution budget and expenses were
                                           not supported and accurately calculated in the
                                           contract we reviewed, the IRS is exposed to
                                           potentially spending more than what was budgeted
                                           for the SPIIDE Project.
Management actions: After the completion of our fieldwork and in discussions with executive
management, the IRS stated that other internal management controls are in place to ensure that
invoices are properly expensed and to prevent over spending. In addition, the IRS provided
additional support and explanation on some of the issues previously identified; however, TIGTA
did not have sufficient time to review the information in-depth for issuance of this report.

Stakeholder involvement was not clearly documented and maintained
The SPIIDE Project team could not provide sufficient documentation to support stakeholders’
involvement in the development to implement the DLP solution. IRM 2.16.1.2.2.5.1, Milestone
Readiness Reviews, requires the assurance that stakeholders and process owners participated in
the development of a system. This can be supported by: 1) examining attendance lists and
reviewer comment forms for each key deliverable, 2) resolving reviewer comments
satisfactorily, and 3) completing the appropriate checklists for the current phase.
We reviewed the minutes from the SPIIDE Project team biweekly meetings for stakeholders’
attendance and other key deliverables for the stakeholders’ comments. The minutes only
documented stakeholders who were invited to the meetings, rather than who attended the
meetings and their expressed comments. The SPIIDE Project team stated that they provided the
minutes from the meetings to the stakeholders, who subsequently provided comments that were
incorporated into the key deliverables. However, the SPIIDE Project team did not maintain the
original comments from the stakeholders.
Without documented stakeholders’ comments, no assurance exists that stakeholders verified the
DLP solution for its completeness, correctness, and consistency in the previous milestone phases.




                                                                                         Page 10
                 While the Data Loss Prevention Solution Is Being Developed,
                        Stronger Oversight and Process Enhancements
                    Are Needed for Timely Implementation Within Budget


Recommendations
To ensure that the SPIIDE Project meets its new DLP solution implementation date and budget
requirements, the Chief Technology Officer should:
Recommendation 1: Associate fully implementing the DLP solution with meeting the
recommended component requirement for the Administration’s TIC initiative when competing
for and securing additional funding and dedicated information technology resources.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       plans to implement the DLP DIM solution by August 2015 to the extent funding is
       provided.
Recommendation 2: Ensure that the SPIIDE Project team conducts a risk-based analysis on
volume and impact on the system by adding a new criterion to the DLP solution that includes the
key word “TIN.” In addition, ensure that the DLP solution is upgraded to the most current
version available to identify SSNs in embedded comments in the Microsoft Office 2007
application files, especially in the Excel spreadsheets.
       Management’s Response: The IRS agreed with this recommendation. The SPIIDE
       Project team plans to conduct a risk-based analysis for adding a new criterion to the DIM
       solution for “TIN” in 2015. In addition, the IRS plans to upgrade the DLP solution plan
       in 2016 to the extent funding is provided.
Recommendation 3: Ensure that the SPIIDE Project team, with the assistance of the
contracting officer’s representative, reconciles the DLP solution funding and expenses and
resolves discrepancies identified during the audit.
       Management’s Response: The IRS agreed with this recommendation. The SPIIDE
       Project team plans to work with the contracting officer’s representative to reconcile
       discrepancies identified during the audit, to the extent resources are available.
       Office of Audit Comment: IRS management’s response specified that the SPIIDE
       Project team will work to reconcile the discrepancies identified during the audit as its
       corrective action; however, its implementation appears to be contingent upon the
       availability of resources. Because we identified and reported discrepancies that ranged
       from $1,200 to more than $3.3 million, we believe the IRS should resolve all
       discrepancies identified during the audit to ensure accurate reporting of DLP solution
       funding and expenses, without regard for the availability of resources.
Recommendation 4: Coordinate with the contracting officer’s representative and Information
Technology Financial Management Services to ensure that processes are in place and accounting
entries are accurate as they pertain to the SPIIDE Project. This will assist the SPIIDE Project
with properly accounting for dollars spent and provide assurance that sufficient funding remains
to implement the initial release of the DLP solution by December 2014.

                                                                                         Page 11
                    While the Data Loss Prevention Solution Is Being Developed,
                           Stronger Oversight and Process Enhancements
                       Are Needed for Timely Implementation Within Budget


        Management’s Response: The IRS agreed with this recommendation. Information
        Technology Financial Management Services has internal management processes in place
        to ensure that invoices are properly expensed and to prevent over spending. Information
        Technology Financial Management Services plans to ensure that those processes are
        re-communicated to all applicable internal stakeholders.
        Office of Audit Comment: IRS management’s response addressed ensuring that
        processes were in place; however, it did not specifically address ensuring that accounting
        entries are accurate as they pertain to the SPIIDE Project. We reemphasize that all
        accounting entries should be accurate to ensure proper reporting of DLP solution funding
        and expenses in light of discrepancies identified in the audit.
Recommendation 5: Ensure that the SPIIDE Project team clearly documents and maintains
sufficient information of stakeholder involvement in the future as the SPIIDE Project team
continues to implement the DIM and other DLP solution components.
        Management’s Response: The IRS agreed with this recommendation. The SPIIDE
        Project team documented stakeholder involvement with the DLP Working Group and the
        information is stored on the SPIIDE Project SharePoint Site.
        Office of Audit Comment: IRS management’s response showed the corrective action
        for this recommendation was implemented on February 24, 2014. During the audit, we
        made repeated requests to the SPIIDE Project team for documentation of stakeholder
        involvement, which included the DLP Working Group minutes; however, no additional
        documentation was provided to demonstrate stakeholder involvement. As such, we are
        concerned that the recommendation has not been sufficiently addressed.

Data Loss Prevention Solution Processes and Procedures Can Be
Enhanced
The Symantec DLP solution generates a new potential PII disclosure event with a preset status of
“New” and severity of high, medium, low, or informational. The DLP Operations (Ops) team8
receives event alerts from the DLP solution and analyzes the event data and artifacts to
determine if a PII disclosure incident or attempted disclosure occurred. The event is resolved as
a false positive or a nonincident, or it is categorized as a potential incident and referred to proper
authorities for further investigation. If the event is a false positive, the DLP Ops team dismisses
it, resolves it as a false positive, and provides a reason for the type of error. If the event is a
nonincident, the DLP Ops team resolves it as such, provides the reason (which includes personal
use, such as employees e-mailing their own PII to their personal e-mail addresses), and any
necessary comments. No additional actions are taken with the false positives and nonincidents.


8
 The DLP Ops team is part of the SPIIDE Project team during systems development, but will be independent of the
SPIIDE Project team after implementation.
                                                                                                      Page 12
                 While the Data Loss Prevention Solution Is Being Developed,
                        Stronger Oversight and Process Enhancements
                    Are Needed for Timely Implementation Within Budget


However, if a potential incident is confirmed, the DLP Ops team will follow current established
IRS processes and escalate the potential incident, based upon categorization, to the appropriate
parties for further analysis and action as either 1) a criminal incident referral to TIGTA, 2) an
IRS policy violation incident referral to the IRS Computer Security Incident Response Center
(CSIRC), or 3) a broken business process to the business unit liaisons. In the event of a PII
disclosure, the potential incident is sent to the PGLD office. If the appropriate party disagrees
with the assessment, the potential incident is sent back to DLP Ops team for review until another
party accepts the potential incident or the DLP Ops team closes the potential incident. IRS
employees and managers respond to inquiries and requirements as mandated by IRS policy.
For the period June 2012 through December 2013, the SPIIDE Project team conducted a pilot
and started preproduction testing of the DLP solution. This testing identified 1,903 events. To
assess whether the IRS correctly assessed and forwarded potential disclosures of PII detected by
the DLP solution, we reviewed a statistically valid stratified random sample of 105 of the
1,903 events.

Events were generally classified correctly during testing
Our analysis of the 105 sampled events showed that the DLP Ops team correctly classified
99 (94 percent) events as false positives, nonincidents, or potential incidents. However, for the
remaining six (6 percent) events, the DLP Ops team classified these events incorrectly. These
exceptions were discussed with the DLP Ops team, and they agreed with our results. The details
for the six are below.
      *********************************1**************************************
       *********************************1*****************************. This
       event should have been referred to the IRS CSIRC for further review and action. The
       DLP Ops team stated that because this event did not contain an SSN, they ignored the
       event and wrote a policy to ignore similar events. However, they agreed that this event
       should have been forwarded to the IRS CSIRC or the business owner.
      Three e-mails were classified as nonincidents and were not referred to any event
       responders. Two of the e-mails contained files with passwords to various IRS databases
       and systems and should have been referred to the IRS CSIRC. The DLP Ops team
       explained that at the time when these events were reviewed, they were not referring
       events with system passwords to the IRS CSIRC, although they are referring them now.
       The remaining e-mail was sent from the IRS website to the TIGTA Office of
       Investigations and should have been referred to the IRS CSIRC.
      Two e-mails were classified as potential incidents that were closed as business processes
       and forwarded to the business unit liaisons for additional review. However, the number
       in one of the e-mails did not meet the pattern of a valid SSN. The remaining e-mail
       contained the PII of an IRS employee who disclosed the employee’s information, which
       the IRS does not consider a disclosure. These two e-mails should have been classified as

                                                                                         Page 13
                  While the Data Loss Prevention Solution Is Being Developed,
                         Stronger Oversight and Process Enhancements
                     Are Needed for Timely Implementation Within Budget


       false positive and nonincident, respectively. The DLP Ops team agreed that these two
       events were misclassified as business processes.

Established procedures did not always allow potential incidents to be forwarded
to the PGLD office for reporting during testing
Our further analysis of the 105 sampled events showed that the DLP Ops team appropriately
classified 30 events as potential incidents. For 13 (43 percent) of the 30 potential incidents, they
were forwarded to the required responders. The remaining 17 (57 percent) potential incidents
were forwarded to only one event responder based on established procedures, but should have
also been forwarded to and/or accepted by the PGLD office. The details of the 17 potential
incidents and the results of our discussions with the DLP Ops team are below.
      Seven potential incidents were reported to the business unit liaisons for further review
       and action. These involved IRS employees sending outgoing e-mails containing the
       names and SSNs of 104 taxpayers. The DLP Ops team stated that these seven potential
       incidents remain in the DLP inventory because the liaisons have not been trained and
       cannot work (review and resolve) the potential incidents until Union negotiations have
       been completed. The SPIIDE Project team anticipates training the business unit liaisons
       by August 2014.
      Four potential incidents were referred to a DLP Ops team lead analyst for further review
       and actions but have not been reviewed since September 11, 2013. When we asked why
       the potential incidents have not been reviewed, the DLP Ops team shared that they plan
       to forward them to the business unit liaisons, again, once they have been trained.
          *************************1*******************************************
           ***************1***************. A quick search of the DLP solution system
           identified eight additional unencrypted e-mails from this same group e-mail account.
          Three involved e-mails from IRS employees who sent unencrypted e-mails containing
           ************************************3********************************
           ***********************3************************.
      Three potential incidents were closed to the DLP Ops team as a business process and no
       further actions were taken. ************1*****************
       **********************************1*************************************
       **********************************1*************************************
       **********************************1*************************************
       **********************************1*************************************
       **********1***********.
      ********************************1***************************************
       ********************************1***************************************
       ***********************1***************************.
                                                                                            Page 14
                    While the Data Loss Prevention Solution Is Being Developed,
                           Stronger Oversight and Process Enhancements
                       Are Needed for Timely Implementation Within Budget


       ****************************1*******************************************
        ****************************1*******************************************
        *1**. The SPIIDE Project team stated that they reconfigured the DLP solution to ignore
        the undeliverable e-mails from the IRS’s postmaster server after discussing it with the
        IRS CSIRC. We believe that while reconfiguring the DLP solution to ignore the
        undelivered e-mails reduces the number of events for the DLP Ops team to review, it
        does not prevent the disclosure from occurring. When an unencrypted e-mail is not
        delivered, PII may still be disclosed when communication is made with the recipient’s
        e-mail server. The recipient e-mail server could potentially have captured information
        from the body of the e-mail, despite it being undelivered to the intended recipient.
The seven potential incidents previously identified were referred to the PGLD office but were
returned to the DLP Ops team because they did not meet PGLD criteria for a disclosure. The
PGLD’s disclosure definition provides that:
        An unauthorized disclosure is a situation that occurs when an IRS employee discloses
        SBU information, including PII, to someone who is not authorized or does not have a
        legitimate business use for that information, and has the potential for identity theft.
        Examples of events to be sent to PGLD with the purpose of assessing the risk of ID theft
        or other harm as required by OMB 07-16:
           Unencrypted, unblocked transmission, containing SBU/PII, sent to an unintended,
            unauthorized recipient, or one without a legitimate business use for that information.
           Unencrypted, unblocked transmission, containing SBU/PII, and the DLP Ops team is
            unable to determine if the recipient is unintended or unauthorized after reasonable
            research.
We believe that the PGLD office should have received and/or accepted the 17 potential incidents
because sending unencrypted e-mails provides an opportunity for individuals other than the
intended recipient to have access to the enclosed PII. A PGLD executive stated that it was not
the PGLD office’s current policy to treat unencrypted e-mails with PII sent to the intended
recipient as a disclosure, and it might need to revise its policy. In a February 2011 TIGTA
report,9 the issue with sending unencrypted e-mails by employees, taxpayers, and taxpayer
representatives was addressed. The report highlighted the IRS’s internal procedures, guides, and
training briefings in that they do not provide adequate guidance or instructions to employees to
report violations of unencrypted e-mails with SBU data from employees or taxpayers. However,
our research identified subsequent internal guidance effective July 8, 2011,10 with a warning that
employees should never consider e-mail secure, and they should not include taxpayer, SBU, or
PII information in e-mail messages or attachments unless IRS-approved encryption technology is

9
  TIGTA, Ref. No.2011-20-012, Additional Security Is Needed for the Taxpayer Secure E-mail Program p. 12
(Feb. 2011).
10
   IRM 1.10.3.2.1(3) and (7), Secure Messaging and Encryption.
                                                                                                     Page 15
                     While the Data Loss Prevention Solution Is Being Developed,
                            Stronger Oversight and Process Enhancements
                        Are Needed for Timely Implementation Within Budget


being used or an exception is approved by the Information Technology organization. We are not
aware of any exceptions approved by the Information Technology organization for the SPIIDE
Project, especially when the project’s purpose is to protect SBU data.
Based on our findings on the 17 potential incidents, we believe that the PGLD office should have
advised the affected parties of the disclosure and offered credit monitoring services in 11 of the
17 potential incidents. In the remaining six incidents, the PGLD office did not need to contact
the individuals because they either disclosed their own PII or may have been the subject of a tax
or criminal review. In addition, OMB procedures and the Treasury Incident Reporting and
Guidelines Procedures11 require the IRS to report PII disclosures to the Treasury CSIRC. We
believe these 17 potential incidents should have also been reported.
Based upon projections from our sample, we estimate that 308 of the 1,903 potential incidents
met the OMB PII disclosure reporting requirements and were not reported to the PGLD office
and later to the Treasury CSIRC. In addition, we estimate that the individuals whose PII was
disclosed in 199 of the 308 potential incidents were not contacted and offered credit monitoring
services.12

Employees violated policies by providing and responding to tax information in
e-mails during testing
While we understand that the SPIIDE Project and the DLP Ops teams are working through and
refining the DLP solution process and procedures, we identified an additional condition that
warrants the DLP Ops team’s attention as they finalize their guidelines to comply with Federal
guidelines. We identified 11 potential incidents that involved employees providing tax account
information and replying to the original e-mail that contained unencrypted PII from tax preparers
or other Government agencies. These 11 potential incidents remain in the DLP solution
inventory and have not been referred to the business liaisons to be worked. Although the
initiators of the e-mails may have been authorized to receive the information, the employees
violated policy by sending unencrypted e-mails with PII outside the IRS. It appears that three of
these 11 potential incidents were incoming e-mails sent directly to the employees from taxpayer
representatives requesting tax account information.
Employees should not respond to requests for tax return information that are not received
through official channels, such as taxpayer walk-in offices, telephone contact, or cases assigned
by managers. We attempted to search the DLP solution for similar incidents. However, we
could not easily identify any additional events, including those involving tax preparers, because

11
  Department of the Treasury Incident Reporting and Guidelines Procedures Version 4.0 June 15, 2011.
12
  The point estimate projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident
that the point estimate is between 177 and 439 potential incidents that were not reported to the PGLD office and the
Treasury CSIRC. In addition, we are 95 percent confident that the point estimate is between 90 and 308 that the
PGLD office should have contacted the individuals affected by the unencrypted disclosures to offer them credit
monitoring services.
                                                                                                          Page 16
                    While the Data Loss Prevention Solution Is Being Developed,
                           Stronger Oversight and Process Enhancements
                       Are Needed for Timely Implementation Within Budget


the SPIIDE Project team did not add an attribute in the DLP solution to readily identify e-mails
from tax preparers.
The OMB has issued specific guidance for Federal agencies to follow concerning disclosure and
actions to be taken when suspected or confirmed breaches of PII occur. OMB M-06-19,
Reporting Incidents Involving Personally Identifiable Information and Incorporating the Cost for
Security in Agency Information Technology Investments,13 requires agencies to report all
suspected or confirmed incidents involving PII in electronic or physical form to the
U.S. Computer Emergency Readiness Team within one hour of discovering the incident. The
OMB also requires the reporting of PII incidents even when there is no risk of identity theft.
Additionally, OMB M-07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information,14 provides a framework to reduce the risks related to data breaches of
PII. Included in this framework is the use of encryption, strong authentication procedures, and
other security controls to make information unusable by unauthorized individuals.
Furthermore, the IRS has specific internal requirements
for providing information to the public. IRM 11.3.2.6,            Taxpayers have the right to
Methods for Communication of Confidential                      expect that any information they
Information, allows employees to disclose tax                    provide to the IRS will not be
information to a taxpayer, his or her legal representative,     disclosed unless authorized by
or a designated third party. However, disclosure is             the taxpayer or by law, and to
prohibited by e-mail even if the requester asked to           expect appropriate action will be
submit the tax information via e-mail. Although the            taken against employees, return
requester has a legal right to that information, e-mail is        preparers, and others who
not an approved secure method. IRM 11.3.1.14.2,                   wrongfully use or disclose
Electronic Mail and Secure Messaging, provides that              taxpayer return information.
employees may not use e-mail to transmit SBU data
(including PII) to parties outside of the IRS, including
other Government agencies, taxpayers, or their representatives, even if specifically authorized by
the taxpayer, unless the employees use the IRS Secure Messaging system. In addition, IRM
10.5.5.3, Covered Relationships and Official Channels, states that employees are not allowed
access to return information when the request is received through unofficial channels, such as
requests from individuals at social functions and nonwork environments, and requests received
from close friends, relatives, neighbors, or co-workers. Lastly, the IRS recently adopted the
Taxpayer Bill of Rights. In these provisions, taxpayers have the right of confidentiality and can
expect the IRS to only disclose information when authorized by the taxpayer and take


13
   Office of Management and Budget, OMB Memorandum M-06-19, Reporting Incidents Involving Personally
Identifiable Information and Incorporating the Cost for Security in Agency Information Technology Investments
(July 2006).
14
   Office of Management and Budget, OMB Memorandum M-07-16, Safeguarding Against and Responding to the
Breach of Personally Identifiable Information (May 2007).
                                                                                                      Page 17
                  While the Data Loss Prevention Solution Is Being Developed,
                         Stronger Oversight and Process Enhancements
                     Are Needed for Timely Implementation Within Budget


appropriate action against employees, tax return preparers, and others who wrongfully use or
disclose taxpayer return information.
Breaches involving PII can receive considerable media attention, which can greatly harm the
public’s trust in the IRS. Failure to report all potential incidents involving PII disclosure to the
appropriate IRS functions in a timely manner decreases the IRS’s ability to respond quickly and
effectively to report potential incidents to the Treasury CSIRC and to offer remedial services,
such as credit monitoring, to affected individuals. Furthermore, noncompliance or delayed
compliance can also result in substantial harm, embarrassment, and inconvenience to the affected
individuals and could lead to identity theft, blackmail, or other fraudulent use of the
information. Lastly, responding to requests for tax account information received from an
unofficial channel can give the appearance of partiality and the perception of providing
expedited or preferential treatment that is unavailable to the general public.

The DLP Ops team is not reporting tax preparers who violate disclosure rules
during testing
The DLP Ops team is not reporting employee outbound reply e-mails originating from tax
preparers who included taxpayer PII in inbound unencrypted e-mails as disclosure to the Office
of Professional Responsibility (OPR). In our sample of 105 events, we identified three events in
which employees replied to e-mails from tax preparers who sent taxpayer PII requesting tax
account information. Although these e-mails did not originate from the IRS employees, the
inbound e-mails still contained PII. As previously mentioned, we could not easily identify any
additional events involving tax preparers because the SPIIDE Project team did not add an
attribute in the DLP solution to readily identify e-mails from tax preparers.
The three events should have been classified as potential incidents and referred to the business
unit liaisons and subsequently forwarded only the potential incidents involving a tax preparer
who is also a licensed tax practitioner to the OPR. Tax preparers who are permitted to practice
before the IRS are considered Circular 230 practitioners (hereafter referred to as licensed tax
practitioners). The OPR can educate licensed tax practitioners of their responsibility to secure
and protect their clients’ tax return information and to correct their behavior of sending taxpayer
PII by unencrypted e-mail. In addition, an executive from the OPR stated a referral to the OPR
would be appropriate if the business unit liaison determines that a tax preparer who sent a
prohibited e-mail is a licensed tax practitioner, such as an attorney, certified public accountant,
                                          or enrolled agent.
                                       The OPR has the authority to ensure that all licensed tax
      Unencrypted e-mails              practitioners adhere to professional standards and follow
      containing PII can lead          the law. Licensed tax practitioners have the responsibility
      to identity theft.               to secure and protect taxpayer PII from disclosure. They
                                       must also abide by Internal Revenue Code Section 7216
                                       by not recklessly, knowingly, or unknowingly disclosing
                                       taxpayer information. The National Institute for
                                                                                            Page 18
                  While the Data Loss Prevention Solution Is Being Developed,
                         Stronger Oversight and Process Enhancements
                     Are Needed for Timely Implementation Within Budget


Standards and Technology recommends that agencies implement automated tools to monitor
transfers of PII and to monitor inbound and outbound communications.
We presented our concerns to the SPIIDE Project team, and they stated that they were not aware
of the OPR’s responsibilities and that tax preparers were violating their obligations to secure and
protect taxpayer information. As a result, the SPIIDE Project team had not included the OPR as
an event responder for handling these cases. The SPIIDE Project team stated that they will
reconsider monitoring unencrypted inbound e-mail traffic after the DLP solution is initially
deployed and operational. In the meantime, the DLP Ops team will incorporate identifying and
routing such potential incidents to the appropriate event responders into current policy and
procedures.
When faced with a security incident, an agency must be able to respond in a manner protecting
both its own information and helping to protect the information of others who might be affected
by the incident. The IRS may be exposing itself to lose trust with the American public and
exposing taxpayers to potential identity theft and fraud. Additionally, the OPR loses an
opportunity to correct the behavior of registered tax preparers, enrolled agents, and licensed tax
practitioners who are not protecting their clients’ tax return information as required.

Recommendations
To enhance the processes and procedures over the DLP solution, the Chief Technology Officer
should:
Recommendation 6: Ensure that the SPIIDE Project team trains the DLP Ops team to
forward potential incidents to the appropriate event responders and trains business unit liaisons
to immediately start reviewing the potential incidents and then take appropriate action, when
necessary (after Union negotiations are completed in regard to DLP solution implementation).
       Management’s Response: The IRS agreed with this recommendation. The SPIIDE
       Project team trained the DLP Ops team to forward potential incidents to the appropriate
       event responders and business unit liaisons to immediately start reviewing the potential
       incidents and then take appropriate action, when necessary.
Recommendation 7: Change the forwarding procedures to refer all unencrypted e-mails
containing PII to the PGLD office first and then to the business unit liaisons to ensure that all
potential PII disclosure incidents are timely reported to the Treasury CSIRC.
       Management’s Response: The IRS agreed with this recommendation. Events
       determined to be unencrypted PII exiting IRS network protection will be reviewed by the
       PGLD office’s Incident Management team within the SPIIDE Project application and
       they plan to notify Treasury CSIRC when appropriate. In addition, the SPIIDE Project
       team plans to update the event management workflow.


                                                                                             Page 19
                  While the Data Loss Prevention Solution Is Being Developed,
                         Stronger Oversight and Process Enhancements
                     Are Needed for Timely Implementation Within Budget


Recommendation 8: Conduct an analysis to determine whether to remove the
reconfiguration that ignores the undeliverable e-mails to allow the DLP solution to identify these
events. The identification of similar e-mails will provide the IRS with an opportunity to notify
the affected parties of the disclosure and report it to the Treasury CSIRC.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       plans to conduct an analysis to determine whether to remove the reconfiguration that
       ignores the undelivered e-mails in the DLP solution production system.
Recommendation 9: Ensure that the SPIIDE Project team adds an additional attribute to
identify tax preparers to the advance search criteria to allow for easy identification of events
involving tax preparers in outbound unencrypted e-mails containing PII.
       Management’s Response: The IRS agreed with this recommendation. The current
       DLP solution does not have the ability to correctly identify tax preparers via an
       automated search criterion. In lieu of this, a modification has been made to the DLP
       solution reason codes to allow for event responders to classify an event involving tax
       preparers.
Recommendation 10: Incorporate a process to forward outbound unencrypted e-mail traffic
with PII from licensed tax preparers/taxpayer representatives to the OPR through the business
unit liaisons into the current policy and procedures. After the DIM component of the DLP
solution is deployed and operational, conduct a risk-based analysis to determine the feasibility on
the monitoring and identifying of unencrypted inbound e-mail traffic with PII from these
licensed tax practitioners to route to the OPR.
       Management’s Response: The IRS partially agreed with this recommendation. The
       SPIIDE Project team plans to enhance the processes and procedures to forward outbound
       unencrypted e-mail traffic with PII from licensed tax preparers/taxpayer representatives
       to the OPR through the business unit liaison. The IRS disagreed with the part of the
       recommendation regarding inbound e-mail. The requirement to implement a DLP
       solution as defined in Treasury Directive 85-01 is to prevent the outbound transmission
       of unencrypted information from the Treasury. This expansion to review and monitor
       inbound e-mail traffic for unencrypted SSNs from licensed tax practitioners is not
       currently feasible or cost effective for the IRS. For example, no source of valid e-mail
       addresses for licensed tax practitioners currently exists.
       Office of Audit Comment: While the IRS’s statement regarding the Treasury
       Directive’s requirement is valid, we stated in the report that the National Institute for
       Standards and Technology recommends that agencies implement automated tools to
       monitor transfers of PII and to monitor inbound and outbound communications.
       However, we concur with IRS management’s rationale for not implementing the inbound
       portion of the recommendation.


                                                                                             Page 20
                 While the Data Loss Prevention Solution Is Being Developed,
                        Stronger Oversight and Process Enhancements
                    Are Needed for Timely Implementation Within Budget


Recommendation 11: Coordinate with the business units to ensure that their employees
follow the IRM procedures that require the use of the IRS Secure Messaging system when
sending SBU/PII information to tax preparers, other Government agencies, and taxpayers.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       plans to redistribute an IRS-wide communication on authorized encryption procedures for
       SBU/PII to ensure that employees follow the IRM procedures.
We also recommend that the Director, Privacy, Governmental Liaison, and Disclosure, should:
Recommendation 12: Revise the disclosure acceptance criteria to ensure that all potential PII
disclosure incidents are reported to the Treasury CSIRC within the required time period and that
affected parties are timely notified.
       Management’s Response: The IRS disagreed with this recommendation. The
       acceptance criteria used by the PGLD office’s Incident Management team adheres to
       OMB and National Institute of Standards and Technology requirements for the reporting
       of inadvertent disclosures. The PGLD office’s Incident Management team will review
       SPIIDE Project-identified events in conjunction with the business liaisons and the DLP
       Ops team and report appropriate items to the Treasury CSIRC. When applicable, a risk
       assessment will be performed and potentially affected individuals notified in accordance
       with existing direction.
       Office of Audit Comment: IRS management disagreed with our recommendation
       because they believe the PGLD office’s acceptance criteria adhered to existing Federal
       Government guidance. We contend that the acceptance criteria did not address the
       exceptions identified during our audit. Specifically, we found employees responding
       with tax information in unencrypted e-mails. During the audit, the PGLD office stated
       that its office’s current policy was not to treat unencrypted e-mails with PII sent to the
       intended recipient as a disclosure. However, as we reported, IRS policy, which has been
       in effect since March 7, 2008, prohibits communicating confidential information using
       e-mail other than through the Secure Messaging system. As such, the use of unencrypted
       e-mails outside of the IRS violates policy and should be included in the acceptance
       criteria so that the PGLD office can evaluate any possible actual disclosures due to the
       possible interception of unencrypted e-mails.




                                                                                         Page 21
                     While the Data Loss Prevention Solution Is Being Developed,
                            Stronger Oversight and Process Enhancements
                        Are Needed for Timely Implementation Within Budget


                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the SPIIDE Project is developing
a data loss prevention and protection solution for implementation in accordance with applicable
policies and procedures and within budget to safeguard sensitive data. To accomplish our
objective, we:
I.       Determined whether the development of the SPIIDE Project properly followed
         commercial off-the-shelf enterprise life cycle1 procedures in accordance with Treasury,
         OMB, IRM, and other applicable guidelines.
         A. Determined whether the SPIIDE Project completed required key deliverables through
            the current milestone. In addition, we reviewed OMB and Treasury guidance to
            determine the requirements for the IRS to develop and implement a breach
            notification policy, to eliminate or reduce the unnecessary use of SSNs, and to
            implement additional controls in the cybersecurity environment.
         B. Determined whether system security controls have been considered and planned in
            the design of the SPIIDE Project.
             1. Determined whether security issues and risks were identified, tracked, and being
                addressed from project inception.
             2. Selected a statistically valid random sample of the SPIIDE Project’s limited
                testing results2 to determine if the IRS took appropriate actions to report the
                potential breaches. We used a 95 percent confidence level, an 8 percent expected
                error rate, and a ± 7 percent precision level. We took a statistically valid random
                sample because we wanted to project the number of events not reported properly
                over the population of all 1,903 events identified from June 2012 through
                December 2013.
             3. Used TIGTA’s contracted statistician to review the sampling plan and to develop
                projections.
             4. Conducted independent testing of the DLP solution to determine whether the
                system is capable of identifying unencrypted e-mails containing PII.
         C. Determined the frequency of stakeholders’ involvement in the SPIIDE Project.

1
 See Appendix V for a glossary of terms.
2
 We used the limited testing results and determined the accuracy of the DLP solution capabilities for identifying
PII, which are included in this report.
                                                                                                           Page 22
                 While the Data Loss Prevention Solution Is Being Developed,
                        Stronger Oversight and Process Enhancements
                    Are Needed for Timely Implementation Within Budget


II.    Determined whether the SPIIDE Project is effectively and efficiently managing funds
       allocated for the implementation of the Symantec DLP solution by obtaining total cost,
       from inception to date, by category for the SPIIDE Project from the project manager or
       other responsible IRS officials.
III.   Determined the U.S. Department of State and U.S. Postal Service’s experience with the
       development and cost of implementing the Symantec DLP solution to identify best
       practices to share with the IRS’s SPIIDE Project team.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: Treasury Directives, and OMB,
IRM, and National Institute for Standards and Technology guidelines for implementing an
automatic tool to monitor transfers of PII and for developing a commercial off-the-shelf product.
We evaluated these controls by interviewing Treasury, U.S. Department of State, and U.S. Postal
Service officials; IRS procurement and budget personnel; the SPIIDE Project team; and an
enterprise life cycle coach, and by reviewing enterprise life cycle commercial off-the-shelf
artifacts and documents supporting the procurement, budget, and expenses for the DLP solution.




                                                                                         Page 23
                 While the Data Loss Prevention Solution Is Being Developed,
                        Stronger Oversight and Process Enhancements
                    Are Needed for Timely Implementation Within Budget


                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Deborah Smallwood, Audit Manager
Cindy Harris, Lead Auditor
Cari Fogle, Senior Auditor
Louis Lee, Senior Auditor




                                                                                     Page 24
                While the Data Loss Prevention Solution Is Being Developed,
                       Stronger Oversight and Process Enhancements
                   Are Needed for Timely Implementation Within Budget


                                                                      Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Director, Office of Professional Responsibility SE:OPR
Director, Privacy, Governmental Liaison, and Disclosure OS:P
Director, Risk Management Division OS:CTO:SP:RM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluations and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief Technology Officer OS:CTO
       Director, Office of Professional Responsibility SE:OPR
       Director, Privacy, Governmental Liaison, and Disclosure OS:P




                                                                            Page 25
                     While the Data Loss Prevention Solution Is Being Developed,
                            Stronger Oversight and Process Enhancements
                        Are Needed for Timely Implementation Within Budget


                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Privacy and Security – Potential; 308 potential incidents1 of PII and tax account
    disclosures (see page 12).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a statistically valid random sample of 105 events identified by the
DLP solution system. We selected the sample from the population of 1,903 events that were
identified during the period of June 1, 2012, through December 31, 2013. We used a confidence
level of 95 percent, a precision level of ± 7 percent, and an expected error rate of 8 percent to
select the sample.
Our results showed that 17 (16.19 percent) of 105 events were not forwarded to all of the
required responders. These 17 events, which are potential incidents, should have been forwarded
to and/or accepted by the PGLD office as PII disclosures. In addition to reporting the potential
incidents to the PGLD office, the 17 potential incidents should have been reported to the
Treasury CSIRC as PII disclosures as required by OMB procedures. Furthermore, the PGLD
office should have advised the affected parties of the disclosure and offered credit monitoring
services in 11 of the 17 potential incidents.
We project2 that an estimated 308 potential incidents that met the OMB PII disclosure reporting
requirements were not reported to the PGLD office and later to the Treasury CSIRC. In addition,
we project that the individuals whose PII was disclosed in 199 of the 308 potential incidents
were not contacted and offered credit monitoring service.




1
 See Appendix V for a glossary of terms.
2
 The point estimate is based on a two-sided 95 percent confidence interval. We are 95 percent confident the point
estimate is between 177 and 439 potential incidents that were not reported to the PGLD office and the Treasury
CSIRC. In addition, the point estimate is between 90 and 308 potential incidents that the PGLD office should have
contacted the individuals affected by the unencrypted disclosures and offered them credit monitoring services.

                                                                                                         Page 26
                    While the Data Loss Prevention Solution Is Being Developed,
                           Stronger Oversight and Process Enhancements
                       Are Needed for Timely Implementation Within Budget


                                                                                  Appendix V

                               Glossary of Terms

             Term                                         Definition
Baseline                     A baseline consists of a specified set of documents, software, and
                             other items defined as final (or point-in-time) products for a
                             project. A baseline establishes a predefined point from which to
                             evaluate project progress.
Business Unit                A title for major IRS organizations such as Appeals, Wage and
                             Investment, the OPR, and Information Technology.
Circular 230 Practitioner    Any individual described as an attorney, certified public
                             accountant, enrolled agent, enrolled actuary, enrolled retirement
                             plan agent, and registered tax return preparer that is permitted to
                             practice before the IRS. The IRS OPR is responsible for all
                             matters related to practitioner conduct, discipline, and practice
                             before the IRS under 31 Code of Federal Regulations part 10
                             (Circular 230).
Clear Text                   Information that is not encrypted.
Compact Disk                 A compact disk is a small, portable, round medium made of
                             molded polymer for electronically recording, storing, and playing
                             back audio, video, text, and other information in digital form.
Computer Security Incident A group of individuals usually consisting of security analysts
Response Center            organized to develop, recommend, and coordinate immediate
                           mitigation actions for containment, eradication, and recovery
                           resulting from computer security incidents.
Customer Account Data        The Customer Account Data Engine 2 leverages existing IRS
Engine 2                     systems and components to perform functions related to accessing
                             and updating taxpayer account data, managing cases, and resolving
                             account issues. It will implement a single system that uses a
                             relational database to process accounts on a daily basis.
Data Center Warehouse        A collection of IRS databases containing various types of taxpayer
                             account information that is maintained by TIGTA for the purpose
                             of analyzing data for ongoing audits.


                                                                                          Page 27
                    While the Data Loss Prevention Solution Is Being Developed,
                           Stronger Oversight and Process Enhancements
                       Are Needed for Timely Implementation Within Budget


             Term                                          Definition
Default Administrator        A default administrator account is a user account already created
Account                      on the operating system (by default) that allows the administrator
                             to make changes that will affect other users. Administrators can
                             change security settings, install software and hardware, access all
                             files on the computer, and make changes to other user accounts.
Development, Integration,    A controlled environment used to create, modify, integrate, and
and Test Environment         test configuration items, information technology services,
                             applications, releases, processes, etc.
Disclosure                   The making known to any person, in any manner, a return or
                             return information.
Driver                       A driver is a program that interacts with a particular device or
                             special kind of software. The driver contains the special
                             knowledge of the device or special software interface that
                             programs using the driver do not.
Encryption                   The process of converting plain text to cipher text by means of a
                             cryptographic system.
Enterprise Life Cycle        The enterprise life cycle establishes a set of repeatable processes
                             and a system of reviews, checkpoints, and milestones that reduce
                             the risks of system development and ensure alignment with the
                             overall business strategy.
False Positive               A false positive is a test result which incorrectly indicates that a
                             particular condition or attribute is present. For example, a
                             nine-digit ZIP code could be misconstrued as an SSN.
Filing Season                The period from January through mid-April when most individual
                             income tax returns are filed.
Financial Management         An Office that supports IRS Information Technology by
Service                      formulating and executing budgets, preparing clear financial
                             policy, and providing financial services to the Associate Chief
                             Information Officers. In addition, it serves as the link to the Chief
                             Financial Officer and represents Information Technology’s
                             funding needs to Corporate IRS.




                                                                                            Page 28
                   While the Data Loss Prevention Solution Is Being Developed,
                          Stronger Oversight and Process Enhancements
                      Are Needed for Timely Implementation Within Budget


            Term                                         Definition
Incident                    An incident is an occurrence that actually or potentially
                            jeopardizes the confidentiality, integrity, or availability of an
                            information system or the information the system processes,
                            stores, or transmits. Also, an incident could constitute a violation
                            or imminent threat of violation of security policies, security
                            procedures, or acceptable use policies.
Integrated Financial        An administrative accounting system used by the IRS.
System
Integrated Procurement      A program that tracks all incoming commitment requests and
System                      captures the information necessary to process acquisition actions
                            including purchase orders, delivery orders, task orders, contract
                            awards, interagency agreements, and associated modifications.
Live Data Waiver            The IRS prohibits the use of live data without approval from the
                            Office of Privacy, Information Protection, and Data Security. Live
                            data shall be used only when other alternatives, such as sanitized
                            live data or synthetic data, cannot be used to complete a business
                            process or other assigned official duties, and live data waiver must
                            be prepared for such use.
Milestone                   Milestones provide for “go/no-go” decision points in a project and
                            are sometimes associated with funding approval to proceed.
National Institute for      Founded in 1901, the National Institute for Standards and
Standards and Technology    Technology is a nonregulatory Federal agency within the U.S.
                            Department of Commerce. Its mission is to promote U.S.
                            innovation and industrial competitiveness by advancing
                            measurement science, standards, and technology in ways that
                            enhance economic security and improve our quality of life.
Permissions                 A system administrator defines for the system which users are
                            allowed access to the system and what privileges of use, such as
                            access to which file directories, hours of access, and amount of
                            allocated storage space.




                                                                                         Page 29
                   While the Data Loss Prevention Solution Is Being Developed,
                          Stronger Oversight and Process Enhancements
                      Are Needed for Timely Implementation Within Budget


            Term                                          Definition
Plug and Play                Plug and play is a phrase used to describe devices that work with a
                             computer system as soon as they are connected. The user does not
                             have to manually install drivers for the device or even tell the
                             computer that a new device has been added. Instead, the computer
                             automatically recognizes the device, loads new drivers for the
                             hardware (if needed), and begins to work with the newly
                             connected device.
Privilege                    A right granted to an individual, a program, or a process.
Sensitive But Unclassified   Any information that requires protection due to the risk and
                             magnitude of loss or harm to the IRS or the privacy to which
                             individuals are entitled under 5 United States Code Section 552a
                             (the Privacy Act), which could result from inadvertent or
                             deliberate disclosure, alteration, or destruction.
Separation of Duties         Key duties and responsibilities need to be divided or segregated
                             among different people to reduce the risk of error or fraud.
SharePoint Site              A platform from Microsoft that is used to create intranets (internal
                             websites) for team collaboration, blogs, wikis, and company news.
                             It is also commonly deployed to extend certain information to
                             customers via password-protected websites.
Subject Matter Expert        A subject matter expert is an individual who understands a
                             business process or area well enough to answer questions from
                             people in other groups who are trying to help. It is most
                             commonly used to describe the people who explain the current
                             process to information technology and then answer their questions
                             as they try to build a technology system to automate or streamline
                             the process.
Taxpayer Bill of Rights      The Taxpayer Bill of Rights takes the multiple existing rights
                             embedded in the tax code and groups them into 10 broad
                             categories that include the Right to Be Informed and the Right to
                             Privacy.
Thumb Drive                  An external hard disk drive or optical disk drive that plugs into the
                             universal serial bus port.




                                                                                          Page 30
                   While the Data Loss Prevention Solution Is Being Developed,
                          Stronger Oversight and Process Enhancements
                      Are Needed for Timely Implementation Within Budget


          Term                                           Definition
Trusted Internet            The primary goals of the TIC initiative are to consolidate and
Connection                  secure Federal agency external connections using a common set of
                            security controls and to improve the Federal Government’s
                            incident response capability. To achieve these goals, the initiative
                            has the objectives to 1) reduce and consolidate external
                            connections, including connections to the Internet, across the
                            Federal Government; 2) define and maintain baseline security
                            capabilities at TIC access points; and 3) establish a compliance
                            program to monitor agency adherence to TIC policy.
User Seat License           Licensed software on a server may only be accessed by those who
                            have been granted a seat, also referred to as a seat license. Those
                            with a seat license are identified in the system directory; only they
                            can access the protected software. Thus, each user computer is
                            considered a seat.




                                                                                         Page 31
    While the Data Loss Prevention Solution Is Being Developed,
           Stronger Oversight and Process Enhancements
       Are Needed for Timely Implementation Within Budget


                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 32
While the Data Loss Prevention Solution Is Being Developed,
       Stronger Oversight and Process Enhancements
   Are Needed for Timely Implementation Within Budget




                                                       Page 33
While the Data Loss Prevention Solution Is Being Developed,
       Stronger Oversight and Process Enhancements
   Are Needed for Timely Implementation Within Budget




                                                       Page 34
While the Data Loss Prevention Solution Is Being Developed,
       Stronger Oversight and Process Enhancements
   Are Needed for Timely Implementation Within Budget




                                                       Page 35
While the Data Loss Prevention Solution Is Being Developed,
       Stronger Oversight and Process Enhancements
   Are Needed for Timely Implementation Within Budget




                                                       Page 36
While the Data Loss Prevention Solution Is Being Developed,
       Stronger Oversight and Process Enhancements
   Are Needed for Timely Implementation Within Budget




                                                       Page 37
While the Data Loss Prevention Solution Is Being Developed,
       Stronger Oversight and Process Enhancements
   Are Needed for Timely Implementation Within Budget




                                                       Page 38
While the Data Loss Prevention Solution Is Being Developed,
       Stronger Oversight and Process Enhancements
   Are Needed for Timely Implementation Within Budget




                                                       Page 39
